BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing BriefAmicus
Curiae of the Foundation for Individual Rights in
Education (FIRE) in Support of Petitioner in 21-375,
Joshua Gray v. Maine Department of Public Safety,
were sent via Next Day Service to the U.S. Supreme
Court, and 3 copies were sent via Next Day Service
and e-mail to the following parties listed below, this
4th day of October, 2021:
Paul Michael Sherman
Institute for Justice
901 North Glebe Road
Suite 900
Arlington, VA 22203
(703) 682-9320
psherman@ij.org
Counsel for Petitioner
Thomas A. Knowlton
Office of the Attorney General of Maine
6 State House Station
Augusta, ME 04333
(207) 626-8800
thomas.a.knowlton@maine.gov
Counsel for Respondent

i

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

I

8790 Governor's Hill Drive

Franklin Square

Suite 102

' 1300 I Street, NW, Suite 400E

Cincinnati, Ohio 45249

, Washington, DC 20005

Eugene Volokh
Counsel of Record
First Amendment Clinic
UCLA School of Law
385 Charles E. Young Dr. E
Los Angeles, CA 90095
(310) 206-3926
volokh@law.ucla.edu

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 4, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

<J~

d~r:J,

Notary Public

/J~
Q

~ d'D dl

[seal]

JOHN D. GALLAGHER
Nct::irv Public, State of Ohio
My Commission Expires
f'.ebri;::i ry 14, ,,L'3

